BACKGROUND

Matching program costs with performance measures is a vital step in the Federal Government’s
progress toward financial accountability. By associating costs with results, management can better
measure the effectiveness of their current operations and focus limited resources on activities with the
greatest results.

The passage of the Chief Financial Officers Act of 1990 started the progress toward greater financial
accountability by requiring the preparation and audit of governmentwide financial statements. The Act
also included among the functions of the Chief Financial Officer “the development and reporting of cost
information” and the “measurement of performance.” In July of 1993, Congress passed the
Government Performance and Results Act (GPRA),1 which mandated performance measurements be
developed by Federal agencies by which programs could be measured and evaluated. Two months
later, in his report to the President on the National Performance Review (NPR), Vice President Gore
recommended an action which required the Federal Accounting Standards Advisory Board (FASAB)
to issue a set of cost accounting standards for all Federal agencies. In 1995, FASAB issued the
Statement of Federal Financial Accounting Standards No. 4 (SFFAS No. 4) which requires, in
part, Federal agencies to provide full costs of their programs, activities, and outputs.

Cost information helps program and support managers, the primary users of cost information, make
better decisions, increase program effectiveness, and be more accountable for resources entrusted to
them. The implementation of a managerial cost accounting process that matches cost information with
program results will serve as a crucial step toward greater financial accountability and improved public
confidence in government operations. This joint effort between the Office of Inspector General and the
Mine Safety and Health Administration will serve as a platform to initiate discussions and examine
potential obstacles to the successful implementation of a managerial cost accounting process for not
only MSHA but all agencies within the Department.


SCOPE

Fiscal year 1999 expenditures, as reported in the Department’s Consolidated Financial Statements,
were matched with MSHA’s strategic goals. We performed our work from February through July
2000, in accordance with the Statement on Standards for Consulting Services as issued by the
American Institute of Certified Public Accountants.




        1
            GPRA requires agencies to set multiyear strategic goals in their strategic plans and corresponding annual goals in their performance reports,
            measure performance toward the achievement of those goals, and report on their progress in their annual performance reports. These reports
            are intended to provide important information to agency managers, policymakers, and the public on what each agency accomplished with
            resources provided.
                                                             2

OBJECTIVES

The principal objectives of this consultation included:

I.        identify MSHA’s strategic goals, performance measures and expenditures for FY 1999;

II.       identify expenditures by MSHA’s operating programs and develop a methodology to allocate
          expenditures to MSHA’s strategic goals;

III.      design and prepare a Program Cost and Results Statement which matches expenditures to
          MSHA’s strategic goals; and

IV.       identify potential obstacles to the successful implementation of managerial cost accounting at the
          agency level.


I.        MSHA’s Strategic Goals, Performance Measures and Expenditures for FY 1999

Presently, MSHA’s costs are reported in the Department’s Consolidated Financial Statements under a
single Departmental Outcome Goal, “to reduce workplace injuries, illnesses and fatalities.” Below this
single outcome goal, MSHA has adopted two agency strategic goals, one for safety and one for health.
The strategic goals are further supported by five performance measures (See Figure-1).

     DOL Strategic Goal:       Quality Workplaces

     DOL Outcome Goal:         Reduce Workplace Injuries, Illnesses, and Fatalities

     Agency Strategic Goal:    Reduce Injuries in Nation’s Mines (Safety)

                               Performance Measures

                               <   Reduce the number of coal mine and metal and nonmetal mine fatalities to below the
                                   average number recorded for the previous 5 years.
                               <   Reduce mine industry injuries to below the average number recorded for the previous 5
                                   years for all mines.


     Agency Strategic Goal:    Reduce Miners’ Overexposure to Health Hazards (Health)

                               Performance Measures

                               <   Reduce by 20% the percentage of samples out of compliance with the respirable coal
                                   mine dust standard.
                               <   Reduce by 20% the percentage of samples in metal and nonmetal mines out of
                                   compliance with the silica standard for the highest risk occupations.
                               <   Reduce by 20% the percentage of samples in metal and nonmetal mines out of
                                   compliance with the noise standard in the highest risk occupations.
                                                3

    Figure-1


Total FY 1999 expenditures for MSHA were $245.2 million. Employee salaries and expenses (S&E)
made up approximately 68 percent or $167 million of this amount. S&E for the Coal Mine Safety and
Health Administration and Metal and Nonmetal Mine Safety and Health Administration totaled $125
million or 75 percent of MSHA’s S&E. Consequently, we dedicated more time toward allocating the
costs of these two programs.

The Department of Labor Accounting and Related Systems (DOLAR$) is DOL’s core accounting
system. Financial transactions are recorded in DOLAR$ based in part, on an eight-character
responsibility center code (RCC). These RCCs, as provided by MSHA’s management, are assigned
to the lowest office levels within each of MSHA’s nine operating programs. Expenditures by RCCs
were obtained from the September 30, 1999 DOLAR$ database and, as presented in Figure-2,
summarized into the nine operating programs.




     Figure - 2
                                                     4


II.    Methodology to Allocate Expenditures by Operating Program to MSHA’s Strategic
       Goals

We began the pilot project by obtaining an understanding of MSHA’s overall mission and the function
of its nine operating programs. We conducted meetings with managers of each operating program to
assess their programs’ activities as they relate to the agency’s strategic goals. In addition, we
conducted interviews and disseminated questionnaires to supervisors and staff within two of MSHA’s
largest operating programs, Coal Mine Safety and Health Administration and Metal and Nonmetal
Mine Safety and Health Administration.


Direct Charges

We initially identified all expenditures that could reasonably be assigned to the strategic goals for safety
and health. Based on interviews, surveys and other supporting documents provided by management,
we were able to allocate six of MSHA’s nine operating programs directly to MSHA’s two strategic
goals. These six operating programs included: Coal Mine Safety and Health Administration, Metal and
Nonmetal Mine Safety and Health Administration, Directorate of Technical Support, Directorate of
Educational Policy and Development, Office of Assessments and Office of Standards, Regulations and
Variances (See Figure-3). These direct charges totaled 92 percent of MSHA’s FY 1999
expenditures. The rationale for the distribution of these direct charges to the two strategic goals
follows.




         Figure-3
                                                     5


Coal Mine Safety and Health Administration

The Coal Mine Safety and Health Administration (CMSHA) provides direction and leadership in the
administration of nationwide coal mine safety and health inspection and assistance programs through 11
district offices located in coal-producing states. In addition, they are responsible for formulating and
coordinating basic policies, programs, and regulations concerning safety and health in the coal industry,
developing new or revised mine safety and health standards for application to coal mines and providing
expertise in analyzing existing and potential safety and health problems.

We interviewed management to obtain their recommendation on the most reliable method for allocating
inspectors’ time between safety and health activities. Through time and activity records, management
was able to provide the number of employee hours spent on various activities as they relate to safety
and health. By determining the time dedicated toward safety and health activities, we were able to
reasonably allocate employees’ salary and related expenses to the agency’s two strategic goals.

We tested management’s summary of hours related to safety and health activities at 2 of the 11 district
offices. Interviews were conducted with the district director, three specialists, five field supervisors and
five inspectors within District 2 to determine the amount of time spent on these various activities. In
addition, we prepared and disseminated an informational questionnaire to two supervisors and eight
inspectors within District 9. Through our interviews and questionnaires, we attempted to validate the
information provided by management concerning the allocation of employees’ time between safety and
health activities and reviewed responses for consistency between the two district offices.

As a result of our fieldwork, we determined that the summary provided by management was materially
accurate. The distribution of time between safety and health activities for the CMSHA was
approximately 76 percent and 24 percent, respectively. However, variations were identified between
the two district offices surveyed. Further testing is required to determine the extent of the differences
among district offices and to reflect those differences in an allocation methodology.

Metal and Nonmetal Mine Safety and Health Administration

The Metal and Nonmetal Mine Safety and Health Administration (MNMSHA) provides direction and
leadership in the administration of nationwide metal and nonmetal mine safety and health inspection and
assistance programs through six district offices. In addition, they are responsible for formulating and
coordinating basic policies, programs, and regulations concerning safety and health in the metal and
nonmetal industries, developing new or revised safety and health standards for application to metal and
nonmetal mines and mills and providing expertise in analyzing existing and potential safety and health
problems.
                                                     6

As with the CMSHA, we interviewed management to obtain their recommendation on the most reliable
method for allocating inspectors’ time between safety and health activities. Time and activity records
used by the MNMSHA do not distinguish between safety and health activities performed.
Consequently, the allocation of time between safety and health activities was based on interviews and
surveys of inspectors.

Testing was performed for three of the six district offices. Interviews were conducted of the district
director, one supervisor and two inspectors within the Northeastern District Office. In addition, we
prepared and disseminated a questionnaire to 2 supervisors and 13 inspectors within the Rocky
Mountain and Western District Offices. Through our interviews and questionnaires, we determined the
amount of employees’ time spent on safety and health activities and reviewed responses for consistency
among the three district offices.

As a result of our fieldwork, we determined that the distribution of time between safety and health
activities for the MNMSHA was approximately 72 percent and 28 percent, respectively. However,
variations were identified among the three district offices surveyed. Additional testing is required to
determine the extent of differences among district offices and to reasonably reflect those differences in
an allocation methodology.


Directorate of Technical Support

The Directorate of Technical Support plans and directs the Agency’s scientific and engineering
expertise through skilled scientists and engineers using unique laboratories and specialized equipment
for evaluation, testing, field and laboratory investigations, and applied engineering. They are also
responsible for conducting testing of mine equipment and materials for permissibility and approval,
conducting engineering studies and surveys of problems in the mining industry and identifying hazards
related to the design and use of mining equipment.

During our interview, management reviewed all RCCs assigned to this Directorate and indicated
whether costs charged to the RCCs were from activities related to safety, health or both. RCCs with
activities specifically related to either safety or health contained approximately $14 million out of the
$24 million of costs for this directorate. Management provided an estimated percentage of time
dedicated to safety and health activities for RCCs with activities considered related to both. These
percentages were used in the allocation of the remaining $10 million of costs for this Directorate.
Assignment of costs to safety and health activities for this Directorate was based solely on information
provided by management.
                                                    7

Directorate of Educational Policy and Development

The Directorate of Educational Policy and Development implements MSHA’s education and training
programs that are designed to promote safety and health in the Nation’s mining industry. The
Directorate plans, monitors, and evaluates all MSHA education and training programs, provides training
at the National Mine Health and Safety Academy, administers the State Grants Program, approves
operator training plans, and provides education and training field assistance to operators.

Funding for MSHA’s training academy accounted for approximately $8.4 million or 35 percent of the
Directorate’s total expenditures. Expenditures within MSHA’s Training Academy were allocated
based on course content, as it relates to safety and health, and student hours assigned to these courses
during FY 1999. Management provided an analysis of the course content and a report on the student
hours assigned to the courses. Based on management’s analysis, the distribution of costs between
safety and health activities for the training academy was approximately 60 percent and 40 percent,
respectively. State grants accounted for approximately $7.3 million (30 percent) of the total
expenditures; however, a direct allocation for safety and health of funding for state grants could not be
determined due to the vast differences in where states focus resources. Other activities of the
Directorate were considered general support. As a result, all remaining costs in this office were
allocated between safety and health based on the Training Academy’s percentages.

Office of Assessments

The Office of Assessments coordinates with MSHA Administrators and District Managers on
proposed assessment determinations as well as the integration of Assessments’ efforts as part of the
overall Agency enforcement strategy. In addition, they develop, coordinate, and disseminate
assessment policies, regulations, and procedures, direct and coordinate all proposed assessments and
special assessment work and provide overall direction and supervision over the operation of the
automated Assessment Database Management System.

Management performed an analysis of all assessed violations, including those contested and delinquent,
to determine whether they were related to safety, health or both. They determined that approximately
96 percent of the violations assessed related to safety and 4 percent related to health. These
percentages were applied to all costs for this program.

Office of Standards, Regulations and Variances

The Office of Standards, Regulations and Variances develops, revises, publishes and reviews all
MSHA standards, regulations, and related policy issuances. In addition, they establish MSHA policies
and criteria for drafting of regulations and standards and ensure regulations and standards are needed.
They arrange, announce, and conduct public hearings and consultation meetings on proposed standards
and regulations, evaluate the comments and findings obtained and assist in the development of legislative
                                                     8

proposals on behalf of the Assistant Secretary.


Management determined that during FY 1999 approximately 60 percent of their time was dedicated to
health regulations and 40 percent was dedicated to safety regulations. These percentages were applied
to all costs for this program. Assignment of costs to safety and health activities for this Directorate was
based solely on information provided by management. Time and activity reports were not available to
verify information.

Indirect Charges

Three of the nine operating programs, the Directorate of Program Evaluation and Information
Resources, the Directorate of Administration and Management and the Office of the Assistant
Secretary, contained costs which were considered entirely indirect costs. For the purposes of this
report, indirect charges were considered expenditures in which a reasonable allocation methodology to
the agency’s strategic goals could not be identified.

Directorate of Program Evaluation and Information Resources

The Directorate of Program Evaluation and Information Resources directs and provides information
resources management capability and program policy evaluation products and services to improve the
safety and health of the Nation’s miners.

Directorate of Administration and Management

The Directorate of Administration and Management serves as the principal advisor to the
Assistant Secretary on Federal laws, regulations, standards, policies, procedures and related theory
and philosophy concerning the planning, acquisition, utilization, evaluation, and management of
MSHA’s human, financial, and property resources. In addition, they are responsible for serving as the
principal advisor to the Assistant Secretary on labor-management relations including negotiated
agreements with bargaining unit employees.

Office of the Assistant Secretary for Mine Safety and Health

The Office of the Assistant Secretary serves as a principal advisor to the Secretary of Labor and other
government officials on matters and policies pertaining to safety and health in the mining industries. In
addition, they provide administration and staff support for the ongoing work of MSHA, they represent
the agency, DOL, or Government before various congressional committees, conferences and other
meetings of national or international significance and serve on a variety of interdepartmental and
interagency committees concerned with mine safety and health programs.
                                                    9

Expenditures for these offices were $21 million for FY 1999. The costs for these three offices were
allocated to safety and health based on the combined allocation percentages of the six operating
programs directly charged. These offices provide general administrative support for the agency. Costs
for these offices could not be tied directly to safety or health activities.

III.   Program Costs and Results Statement that Matches Expenditures to MSHA’s
       Strategic Goals

Based on the allocation methodologies discussed in the previous section, we developed a comparative
Cost and Results Statement that matches expenditures to MSHA’s strategic goals for safety and health.
The Statement also compares actual results to established targeted results for each performance
measure within the goals for a 4-year period. We attempted to match expenditures against MSHA’s
specific performance measures within each strategic goal. However, as discussed in the next section
we were unable to allocate costs to these specific measures.


IV.    Potential Obstacles to the Successful Implementation of Managerial Cost Accounting
       at the Agency Level

We identified many obstacles to the successful implementation of managerial cost accounting, including:

       <        determining the level at which costs should be allocated to satisfy the multiple users;
       <        accounting systems which cannot readily provide timely cost information by program
                activities or performance measures;
       <        activity costs which impact two or more measures;
       <        activities not covered by current performance measures;
       <        external influences that limit management’s decision making capabilities; and
       <        management’s perceived usefulness of these statements.

During our fieldwork, questions arose as to what level costs should be allocated. For example, should
they be allocated to specific activities to support the program manager or to performance measures to
support legislative requirements, or both? In all probability, the successful implementation of a
managerial cost accounting system will have to meet the needs of multiple users requiring costs to be
matched at multiple levels. MSHA needs to consider all potential future users of these statements and
design a Cost and Results Statement that will meet their needs.

The Department’s core accounting system, DOLAR$, and MSHA’s management information systems
do not capture activity costs in a manner which can be easily matched to specific performance
measures. All costs must be extracted from DOLAR$ and manually allocated to measures based on
various methodologies which are significantly dependent on employees’ estimations and recollection of
time spent on various activities. Within MSHA, there were significant differences between the operating
                                                    10

program’s management information systems. One program had a system that provided greater detail in
tracking time charged to specific activities enabling costs for this program to be easily matched to the
Agency’s strategic goals. Other operating programs either did not track time with sufficient detail to
reasonably match to strategic goals or did not have a time tracking system. As a result, reliance on
employees for time estimations ranged from moderate to significant. Compounding the matter is that
these estimations could change significantly from year to year depending on new legislative requirements
or initiatives. A managerial cost accounting system needs to be an automated process which captures
timely cost data at both the activity and performance measure level to enable successful cost
accounting.

In the case of MSHA’s strategic goal for safety, even the presence of more detailed financial and
management information systems would not alleviate the difficulties in assigning costs to specific
performance measures. MSHA’s performance measures under the strategic goal for safety are, by
their nature, deeply intertwined. Activities that support these two measures are without distinction,
making it nearly impossible to allocate costs between these measures based on their direct impact. For
example, the costs of mine inspections cannot be split between MSHA’s safety performance measures,
reducing miners’ deaths and reducing miners’ injuries.

MSHA performs activities that would not be covered by MSHA’s present performance measures, e.g.,
rescue team training and training provided to foreign mine inspectors. Management considers these as
significant activities that should be disclosed in Cost and Results Statements. However, since the time
dedicated to performing these activities would not fit under any of MSHA’s current performance
measures, costs of these activities would need to be reported under an “other” category.

Outside factors, such as specific legislative restrictions or industry conditions, influence management’s
ability to make financial decisions. To a large extent, MSHA’s resources are dedicated to activities
which are specifically mandated by law. For example, underground mines are required to be inspected
four times each year and surface mines are required to be inspected twice each year. These factors
should be considered and discussed in connection with the Cost and Results Statement.

Finally, during our interviews with management and staff, it was apparent that the degree of interest in a
managerial cost accounting system varied considerably. Some employees considered this as simply
another accounting exercise while others considered the process as an important tool for managerial
and budgeting decisions. The success of cost accounting is dependent on management’s dedication to
the process. Obtaining management’s support and enthusiasm about cost accounting will require the
ability to sell management on the benefits cost accounting information will provide. Therefore, the next
steps in this process for MSHA must include determining how data obtained will be used to benefit the
agency.
                                                    11


CONCLUSION

Matching program costs with activities, which can be linked to performance measures, is a vital step in
the Federal Government’s progress toward financial accountability. Through interviews, questionnaires
and other information from management, we were able to provide a preliminary Cost and Results
Statement; however, this was significantly dependent on management’s and employees’ estimations.

MSHA must modify both financial and management information systems to capture more detailed
information to be able to associate costs with the agency’s performance measures. However,
fundamental questions, such as what level costs should be assigned to satisfy all potential users, how to
allocate activities that cover numerous performance measures, how legislative restrictions will affect the
statement’s usefulness, and most importantly, how to gain management’s support must still be
answered. It was clear from discussions with agency management, at all levels, that the perceived
usefulness of a Cost and Results Statement vary considerably. If such benefits cannot clearly be
demonstrated to management, MSHA may succeed in establishing a cost accounting system to meet
legislative requirements but fail to achieve the intended purpose – to provide useful cost information to
support management’s decisions.
                                                     12

APPENDIX I

U.S. Department of Labor         Mine Safety and Health Administration
                                 4015 Wilson Boulevard
                                 Arlington, Virginia 22203-1984

SEP 22 2000

MEMORANDUM FOR                   JOHN J. GETEK
                                 Assistant Inspector General
                                   for Audit

                                        /S/
FROM:                            J. DAVITT McATEER
                                 Assistant Secretary for
                                    Mine Safety and Health

SUBJECT:                         MSHA Managerial Cost Accounting Pilot
                                 Draft Report No. 12-00-010-06-001

I want to thank you for providing us the opportunity to review and comment on your Draft Report,
MSHA Managerial Cost Accounting Pilot. As we knew from the start, linking cost accounting
methodology with Agency Government Performance and Results Act (GPRA) goals would be a
difficult process. However, the work your office has done in taking this first step and the efforts of your
staff are to be commended. The results of this report hold promise in giving the Agency useful cost data
as it relates to our GPRA goals.

As the report points out, the obstacles to implementing an Agency-level cost accounting link to GPRA
goals surfaced in your study are formidable. As you examine other Department of Labor Agencies, a
common thread will no doubt emerge requiring Departmental policy and guidance. I believe that a
future process must not be burdensome and agree that the results must be useful to managers. As you
may be aware, my staff has met with the office of the Chief Financial Officer regarding possible
participation in their pilot cost accounting effort. I will keep your office informed of future decisions and
actions.

Specific comments to the draft report are attached.

Attachment


                          Working to Improve the Lives of America's Workers
                                                   13

Specific comments to MSHA Managerial Cost Accounting Pilot Draft
Report No. 12-00-010-06-001

•     The performance measure on silica abatement time was dropped from the initial MSHA
      Strategic Plan during subsequent updates. This was a result of initial inability to link two Agency
      databases and a reassessment of how this measure should be approached
      (Page 2)

•     The Office of Assessments should be included in the Direct Charges section it is a budget
      activity and is a specific element of MSHA's enforcement effort. The report states this on page
      9. An updated final report should include the allocation of Assessments Office funds to Agency
      safety and health goals in the Direct Charges section. (Pages 4,8,9)

•     Re: Technical Support "Time and activity reports were not available to verify information."
      Technical Support has staff in headquarters and in the two Centers at Triadelphia and Bruceton.
      Time and activity reports are available at both centers but at different levels of detail. The more
      detailed information is available for the Triadelphia. Center, which almost exclusively deals with
      safety issues.

•     Rewrite: The Directorate of Educational Policy and Development implements MSHA's
      education and training programs that are designed to promote safety and health in the Nation's
      mining industry. The Directorate plans, monitors, and evaluates all MSHA education and training
      programs, provides training at the National Mine Health and Safety Academy, administers the
      State Grants Program, approves operator training plans, and provides education and training
      field assistance to operators. (Page 7)

•     Add for clarity (Page 7, para. 2) "...however, a direct allocation for safety and health of funding
      for state grants..."

•     Move/Change: From Program Evaluation and Information Resources to Administration and
      Management: "... they are responsible for managing the Agency's human, financial, and property
      resources. (Page 8)

•     Minor typographic changes:
      Page ii DOL strategic goal as "Quality Workplaces"
      Page 3, Figure 2: Administration
      Page 4, para, 1, line 3: agency’s
